Office of Inspector General


    TOP MANAGEMENT CHALLENGES
        FOR FISCAL YEAR 2014

         Department of Transportation

         Report Number: PT-2014-009
        Date Issued: December 16, 2013
                                                       Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s Fiscal Year 2014                            Date:   December 16, 2013
           Top Management Challenges
           Department of Transportation
           Report Number PT-2014-009

  From:    Calvin L. Scovel III                                       Reply to
                                                                      Attn. of:   J-1
           Inspector General

    To:    The Secretary
           Deputy Secretary


           A safe and well-managed transportation system is key for the U.S. economy and the
           quality of life for the traveling public. The Department of Transportation (DOT)
           provides over $70 billion annually to fund a wide range of programs. Consequently, it
           is critical for the Department to provide rigorous stewardship of taxpayer funds while
           carrying out its mission.

           Safety remains the Department’s top priority, and DOT has a number of initiatives
           underway to enhance safety in the air and on the ground. To maintain the Nation’s
           excellent aviation safety record, the Department must continue to improve pilot,
           runway, and repair station safety oversight; assess its recent policy changes to prevent
           controller fatigue; and enhance the data it collects to prevent separation losses
           between aircraft. At the same time, the Department must set investment priorities and
           realistic plans for the Next Generation Air Transportation System (NextGen)—a
           complex and costly effort that is vital to provide safer and more efficient air traffic
           management. This will require difficult trade-offs among diverse capital programs.

           With regard to highways, transit, and pipelines, the Department must address our
           longstanding recommendations and new safety oversight requirements in the Moving
           Ahead for Progress in the 21st Century Act (MAP-21). Key priorities include
           implementing data-driven, risk-based oversight for bridge inspections; developing a
           national tunnel safety program; removing unsafe motor carriers from our Nation’s
           roads; setting effective policies for its newly expanded rail transit oversight role; and
           strengthening States’ pipeline safety programs.


           2014 Top Management Challenges, Department of Transportation
The Department must also continue efforts to meet other MAP-21 requirements for
surface infrastructure projects nationwide to accelerate their delivery and employ
performance-based management. In addition, the Department faces a new challenge to
effectively manage the influx of relief funds to restore transit systems damaged by
Hurricane Sandy in the northeastern United States and establish an emergency relief
program for future disasters. Securing the Department’s information technology (IT)
infrastructure also remains a top priority, as we continue to find information security
deficiencies in critical systems. To protect its mission and credibility, the Department
must help its Operating Administrations address cyber threats; protect sensitive
information; and develop a strategic vision to better manage its current technologies,
plan for future systems, and maximize cost savings.

Finally, we continue to identify opportunities for the Department to save taxpayer
dollars and better manage its contracts and resources. Key focus areas include
reducing use of high-risk contract types, improving oversight of major IT
acquisitions, and better protecting high-dollar recipient programs from fraud, waste,
and abuse.

We remain committed to assisting the Department in improving the management and
execution of its programs and protecting its resources through our audits and
investigations. As required by law, we have identified the Department’s top
management challenges for fiscal year 2014. We considered several criteria in
identifying the following seven challenges, including their impact on safety,
documented vulnerabilities, large dollar implications, and the ability of the
Department to effect change in these areas:

 • Improving FAA’s Oversight of the Aviation Industry and the Operations of the
   National Airspace System
 • Identifying and Addressing Root Causes of Problems With NextGen and Setting
   Investment Priorities

 • Continuing Actions To Strengthen Highway, Transit, and Pipeline Safety
 • Improving Oversight of Surface Infrastructure Investments and Implementing
   Statutory Requirements
 • Implementing Requirements To Address the Federal Railroad Administration’s
   Expanded and Traditional Responsibilities
 • Managing Acquisitions and Contracts To Achieve Results and Save Taxpayer
   Dollars
 • Building a Secure and Modern Information Technology Infrastructure



2014 Top Management Challenges, Department of Transportation                          ii
We appreciate the Department’s commitment to taking prompt corrective action in
response to our findings and recommendations. This report and the Department’s
response will be included in the Department’s Annual Financial Report. The
Department’s response is included in its entirety in the appendix to this report. If you
have any questions regarding this report, please contact me at (202) 366-1959. You
may also contact Lou E. Dixon, Principal Assistant Inspector General for Audits and
Evaluation, at (202) 366-1427.
                                                #

cc: DOT Audit Liaison, M-1




2014 Top Management Challenges, Department of Transportation                          iii
                                                        Table of Contents

Improving FAA’s Oversight of the Aviation Industry and the Operations of the National Airspace
System ............................................................................................................................................. 1

Identifying and Addressing Root Causes of Problems With NextGen and Setting Investment
Priorities .......................................................................................................................................... 6

Continuing Actions To Strengthen Highway, Transit, and Pipeline Safety ................................... 11

Improving Oversight of Surface Infrastructure Investments and Implementing Statutory
Requirements................................................................................................................................ 16

Implementing Requirements To Address the Federal Railroad Administration’s Expanded and
Traditional Responsibilities ........................................................................................................... 20

Managing Acquisitions and Contracts To Achieve Results and Save Taxpayer Dollars................ 23

Building a Secure and Modern Information Technology Infrastructure ...................................... 28

Comparison of Fiscal Years 2014 and 2013 Top Management Challenges .................................. 31

Appendix. Department Response ................................................................................................. 32




2014 Top Management Challenges, Department of Transportation
CHAPTER 1


Improving FAA’s Oversight of the
Aviation Industry and the Operations of
the National Airspace System




Source: Federal Aviation Administration


The Federal Aviation Administration (FAA) operates the world’s safest air transportation
system and has a number of initiatives underway to enhance safety in the National Airspace
System (NAS). However, our audit work as well as recent aircraft accidents and incidents
underscore the need for FAA to further improve its pilot safety initiatives, controller
workforce management, repair station and runway oversight, and safety data analysis.

Key Challenges

  • Advancing initiatives to improve pilot training, mentoring, and record keeping

  • Improving air traffic controller training, scheduling, and performance

  • Implementing a risk-based approach for repair station oversight

  • Enhancing runway safety

  • Improving data collection and analysis to identify and mitigate risks with aircraft
    separation losses and air carrier operations

Advancing Initiatives To Improve Pilot Training, Mentoring, and Record
Keeping Investigations of recent accidents, including the July 2013 crash of Asiana Airlines
flight 214, have focused attention on airline pilots’ training, performance, and


2014 Top Management Challenges, Department of Transportation                              1
CHAPTER 1

qualifications. The 2010 Airline Safety and FAA Extension Act 1 required improvements in
these areas, and FAA has made important progress on many of them. For example, in
recent weeks, FAA issued a final rule to significantly advance commercial pilot training, and
in July 2013, FAA completed a rule that raised airline pilot qualifications for first officers
from 250 flight hours to 1,500. Last year, FAA also updated its rule on flight and duty
requirements to help ensure pilots are rested when they fly. These are significant
achievements for the Agency and should further enhance aviation safety.

Despite these improvements, the Agency is still experiencing delays in issuing rules required
by the act to develop pilot mentoring and leadership programs, and establish better
processes for managing safety risks. Additionally, FAA has been slow to make long-term
implementation decisions on a new electronic database for pilot records. Effectively
implementing the database will require FAA to ensure air carriers are retaining pilot records
and that records contain enough information to help carriers identify specific performance
deficiencies.

Improving Air Traffic Controller Training, Scheduling, and Performance
Training new air traffic controllers to replace the large number of retirees remains a key
priority for FAA—especially in light of FAA’s transition to the Next Generation Air
Transportation System (NextGen). In August 2013, we reported that while FAA has taken
actions to improve its controller training program, such as determining whether to base
new hires’ facility placement on their performance at the FAA Academy, it needs to track
the progress of these actions and establish efficient mechanisms to assess their impact. We
also found that further steps are needed to ensure that air traffic facilities have the training
support resources they need. In July 2012, FAA reduced its use of contracted instructors at
its 22 en route centers by 62 percent. This resulted in some facility managers taking
certified controllers off of their air traffic control positions to supplement training.

We also recently completed a review of FAA’s policy changes to address controller fatigue.
These include placing an additional air traffic controller on the midnight shift at certain
facilities and mandating a minimum of 9 hours off between evening and day shifts. While
the new policies are positive steps to improve safety in this area, they lack clarity and
metrics to measure the effects of fatigue on controllers. For example, facility managers
were concerned about the lack of explicit guidance on what activities are allowed during
recuperative breaks. They also expressed concern over the ability to recall employees on
their breaks.

Implementing a Risk-Based Approach for Repair Station Oversight FAA’s
development of the Safety Assurance System (SAS), a new risk-based approach to enhance
oversight of repair stations, has been delayed 2 years. The Agency now projects inspectors
will not begin using this system until fiscal year 2015. When fully implemented, SAS should
address our recommendations to target inspector resources based on risk and develop a
risk-based system suitable for oversight of foreign repair stations. In the meantime, FAA has
proposed interim solutions to address some of our recommendations, such as providing

1
    Airline Safety and Federal Aviation Administration Extension Act of 2010, Pub. L. No. 111-216 (2010).

2014 Top Management Challenges, Department of Transportation                                                2
CHAPTER 1

inspectors with more comprehensive, standardized procedures for conducting inspections
and reporting findings. However, further delays in implementing the new risk-based system
will likely hinder FAA’s ability to improve its oversight of repair stations.

FAA must also ensure it effectively monitors FAA-certificated repair stations in the European
Union. In 2011, the United States and the European Union entered into an agreement,
which in part directed FAA to begin transferring oversight of its repair stations to the
national aviation authorities of those countries to reduce duplicative oversight. As of May
2013, these authorities assumed responsibility for inspecting, on FAA’s behalf, nearly
400 FAA-certificated repair stations located in 18 countries. This presents a unique
challenge for FAA because, despite its diminished oversight presence at European repair
stations, it must still ensure that these repair stations continue to meet FAA standards. We
are reviewing this issue and plan to report on the process early next year.

Enhancing Runway Safety FAA’s Runway Safety Program Office tracks all reported
runway incursions and categorizes them in terms of risk. FAA met its goal to reduce the rate
of serious runway incursions—those in which a collision was barely avoided—for fiscal year
2012.2 However, between fiscal years 2010 and 2012, the number of serious incursions
tripled—from 6 to 18. Additionally, the total number of all runway incursions increased by
21 percent (954 to 1,150) between fiscal years 2011 and 2012, and continues to rise,
despite a slight decline in total air traffic operations. While FAA recently reorganized its
Runway Safety Office and changed the way it reports runway incursions, it has not assessed
the impact of these changes.

FAA is also working to deploy technology that could help prevent collisions on runways. For
example, in fiscal year 2011, FAA completed deployment of the Airport Surface Detection
Equipment-Model X (ASDE-X) system at 35 major airports, which provides detailed
information to air traffic controllers regarding aircraft operations on runways and taxiways.
While ASDE-X is a step in the right direction, it does not provide alerts directly to pilots, a
longstanding National Transportation Safety Board (NTSB) recommendation. To address this
shortcoming, FAA is integrating ASDE-X with two other systems—Runway Status Lights
(RWSL) 3 and Automatic Dependent Surveillance-Broadcast (ADS-B) 4—to simultaneously
alert controllers and pilots of potential ground collisions. However, progress toward these
enhancements depends on a number of other actions, such as establishing requirements for
technical upgrades, testing system integrity, and determining whether ASDE-X capabilities
will meet FAA’s goals of increasing capacity while improving safety.

Improving Data Collection and Analysis To Identify and Mitigate Risks With
Aircraft Separation Losses and Air Carrier Operations Accurately counting and
identifying trends that contribute to separation losses and operational errors continues to

2
 FAA’s serious runway incursion rate goal for fiscal year 2012 was 0.395 runway incursions per 1 million operations. The
actual rate for serious runway incursions was 0.356 for fiscal year 2012.
3
  RWSL consists of red lights embedded into the runway designed to provide a visible warning to pilots when runways are
not clear to enter, cross, or depart.
4
  ADS-B is a satellite-based effort expected to provide more precise information about the position of aircraft and vehicles
operating on airport surfaces to both pilots and controllers.

2014 Top Management Challenges, Department of Transportation                                                               3
CHAPTER 1

be a top priority for FAA. In April 2013, we reported that between fiscal years 2011 and
2012, operational errors appeared to increase by as much as 32 percent (from 1,895 to
2,509)5; the most serious reported errors (category A 6) also increased (from 55 to 275).

According to FAA, the increase in reported operational errors between fiscal years 2011 and
2012 was largely due to increased reporting through programs such as the Air Traffic Safety
Action Program (ATSAP) 7 and the Traffic Analysis and Review Program (TARP), an
automated system to detect losses of separation at air traffic terminal facilities. 8 However,
we found that the increase in reported errors was linked in part to a rise in actual errors
rather than increased reporting. For example, FAA’s air route traffic control centers
(ARTCC) 9—which have had an automated system in place for years to detect and investigate
reported errors—had a 32 percent increase in operational errors during the same period.

FAA is taking action to mitigate separation losses. For example, FAA has developed a Risk
Analysis Process to evaluate the risk of separation losses, an annual list of the five highest
risk separation losses, and corrective actions to address such hazards. FAA states it has
implemented over 90 percent of the mitigation strategies within the corrective plans that
address the fiscal year 2012 Top Five Hazards and has begun developing corrective action
plans for the fiscal year 2013 list.

FAA is also moving toward a data-driven approach to identify and mitigate risks related to
airline operations. As part of this initiative, FAA implemented the Aviation Safety
Information Analysis and Sharing (ASIAS) system in 2007, which collects and analyzes data
from multiple databases to proactively identify accident risks. ASIAS enables authorized
users to obtain data from confidential databases—such as airline voluntary safety reporting
programs—as well as publicly available data sources. These data could help increase
inspectors’ awareness of industry-wide safety issues. We are currently reviewing ASIAS and
expect to issue a report later this year. Thus far, we have found that FAA is improving ASIAS
by increasing the number of participating commercial airlines and capturing key confidential
voluntary safety data, such as those from air carrier Flight Operational Quality Assurance 10

5
  Based on FAA data, we calculated that the total number of operational errors may have increased up to 2,509 in fiscal
year 2012. We are unable to state that our calculations for FY 2012 are 100 percent accurate due to limitations in FAA
data. Specifically, FAA stopped using the term “operational errors” in 2012.
6
  Prior to fiscal year 2011, FAA reported the rate of category A and B errors per every 1,000 operations as a performance
measure. FAA rated operational errors by severity based on aircraft proximity using A, B, or C—with A being the most
severe risk and C the least severe. In FY 2011, FAA began reporting its System Risk Event Rate (SRER) performance
measure, which also considers repeatability and severity of events. According to FAA, using its SRER performance measure,
the rate of high risk events per 1,000 losses of separation decreased nearly every month during fiscal year 2012 from 24.38
in October 2011 to 9.33 in September 2012.
7
   ATSAP is a voluntary, non-punitive program in which controllers can self-report safety instances and concerns. In
July 2012, we issued a separate report on FAA’s implementation of ATSAP: Long-Term Success of ATSAP Will Require
Improvements in Oversight, Accountability, and Transparency (OIG Report Number 2012-152), July 19, 2012. OIG reports
are available on our Web site at http://www.oig.dot.gov/.
8
  Terminal facilities include air traffic control towers and Terminal Radar Approach Control (TRACON) facilities. Air traffic
control towers separate aircraft on the airport surface and guide aircraft as they take off and land. TRACONs guide aircraft
as they approach or leave airspace surrounding airports to about 40 miles away.
9
  ARTCC guide aircraft flying at high altitudes, generally above 17,000 feet.
10
   FOQA is a voluntary safety program that allows for the routine collection and analyses of digital flight data generated
during aircraft operations.

2014 Top Management Challenges, Department of Transportation                                                               4
CHAPTER 1

programs and Aviation Safety Action Programs. 11 However, FAA’s plan to use ASIAS as a
fully predictive tool is still several years away due to a number of challenges. These include
enhancing automated capabilities and analytical methodologies, improving the quality of
data ASIAS receives from carriers, and addressing access issues and airline concerns over
using confidential ASIAS data.

Related Products The following related documents can be found on the OIG Web site at
http://www.oig.dot.gov.

     • FAA’s Controller Scheduling Practices Can Impact Human Fatigue, Controller
       Performance, and Agency Costs, August 27, 2013

     • FAA Is Making Progress but Improvements in Its Air Traffic Controller Facility Training
       Are Still Needed, August 27, 2013

     • FAA Lacks a Reliable Model for Determining the Number of Flight Standards Safety
       Inspectors It Needs, June 20, 2013

     • FAA Continues To Face Challenges in Implementing a Risk-Based Approach to Repair
       Station Oversight, May 1, 2013

     • FAA’s Fiscal Year 2014 Budget Request: Key Issues Facing the Agency, April 18, 2013

     • FAA’s Progress and Challenges in Advancing Safety Oversight Initiatives, April 16, 2013

     • FAA’s Efforts To Track and Mitigate Air Traffic Losses of Separation Are Limited by Data
       Collection and Implementation Challenges, February 27, 2013

     • FAA and Industry Are Advancing the Airline Safety Act, but Challenges Remain To
       Achieve Its Full Measure, January 31, 2013




For more information on the issues identified in this chapter, please contact
Jeffrey B. Guzzetti, Assistant Inspector General for Aviation Audits, at
(202) 366-0500.


11
  ASAP is a voluntary safety program that allows aviation employees to self-report safety violations to air carriers and FAA
without fear of reprisal through legal or disciplinary actions.

2014 Top Management Challenges, Department of Transportation                                                              5
CHAPTER 2


Identifying and Addressing Root Causes
of Problems With NextGen and Setting
Investment Priorities




Source: Associated Press

The Next Generation Air Transportation System (NextGen) is a multibillion-dollar
transportation infrastructure project that is necessary to modernize our Nation’s aging air
traffic system and provide safer and more efficient air traffic management. NextGen is also
a complex undertaking that involves new technologies and procedures and multiple
stakeholders whose priorities may conflict. In response to a more constrained budget
environment and the need for more realistic plans, the Federal Aviation Administration
(FAA) is working with industry to set investment priorities for NextGen and make trade-offs
among programs, plans, and funding profiles. Since the effort began almost a decade ago,
we have reported on cost increases and delays with modernization projects and other key
management challenges that FAA must address to successfully transform the National
Airspace System (NAS).

Key Challenges

  • Identifying and addressing the underlying causes of cost increases and schedule delays

  • Integrating new performance-based navigation routes to maximize near-term benefits
    and gain user support

  • Implementing an integrated master schedule for NextGen programs

  • Mitigating implementation risks with key automation systems that controllers rely on to
    manage air traffic

  • Further developing and implementing consolidation and modernization plans

  • Safely integrating unmanned aircraft systems in the NAS

2014 Top Management Challenges, Department of Transportation                                 6
CHAPTER 2

Identifying and Addressing the Underlying Causes of Delays FAA’s NextGen
plans—which initially targeted completion for 2025 at a cost of $40 billion—lacked sound
strategies for achieving a system that could handle three times more traffic while reducing
FAA’s operating costs. FAA has been unable to set realistic plans, budgets, and expectations
for key NextGen programs due to a lack of firm requirements for NextGen’s most critical
capabilities. FAA’s organizational culture has also been slow to embrace NextGen’s
transformational vision, and gaps in leadership have further undermined the Agency’s
efforts to advance NextGen. Recognizing the need to better position itself to execute
NextGen, FAA announced a major reorganization in 2011, creating an Assistant
Administrator for NextGen who reports directly to the FAA Deputy Administrator and
establishing a new Program Management Office. While these changes could enhance FAA’s
management of NextGen, it remains unclear whether they will be sufficient to successfully
implement NextGen.

Integrating New Performance-Based Navigation Routes To Maximize Near-
Term Benefits and Gain User Support A central question with NextGen has been
when users will begin realizing benefits. Near-term benefits—such as more direct flights,
improved on-time aircraft arrival rates, and greater fuel savings—can be achieved through
new performance-based navigation (PBN) procedures, such as Area Navigation (RNAV) and
Required Navigation Performance (RNP). 12 However, FAA’s implementation and airlines’ use
of PBN procedures has been inconsistent. For example, according to preliminary data, RNP
use is high at some small- to medium-sized airports, such as Oakland, CA, but overall RNP
use is low, particularly at busy airports, such as those in the New York area. Several
obstacles undermine FAA’s efforts to increase use of PBN procedures. These include a lack
of updated PBN policies and procedures for controllers, a lengthy flight procedure
development process, and a lack of controller tools to manage and sequence aircraft. Until
FAA addresses these obstacles and clearly demonstrates the type and timing of expected
benefits, airspace users will remain reluctant to equip with new avionics needed to advance
new procedures and NextGen.

Implementing an Integrated Master Schedule for NextGen Programs In response
to our April 2012 recommendation, FAA continues to develop an integrated master
schedule for NextGen’s transformational programs 13 and related efforts. The integrated
master schedule is a key tool for FAA and the Department to manage NextGen given the
complex interdependencies between new NextGen technologies and existing air traffic
systems. Without an effective master schedule, it will be difficult for FAA to (1) fully address
operational, technical, programmatic risks; (2) prioritize and make informed trade-offs
among capital programs consistent with industry recommendations; and (3) determine
what capabilities should be delivered first and at what locations. FAA plans to begin using
the integrated master schedule in March 2014 and demonstrate its capabilities by showing

12
    RNAV is a method of navigation in which aircraft use avionics, such as Global Positioning Systems, to fly any desired
flight path without the limitations imposed by ground-based navigation systems. RNP is a form of RNAV that adds on-
board monitoring and alerting capabilities for pilots, thereby allowing aircraft to fly more precise flight paths.
13
   These six programs are Automatic Dependent Surveillance-Broadcast (ADS-B), System Wide Information Management
(SWIM), Data Communications (DataComm), NextGen Network Enabled Weather (NNEW), NAS Voice System (NVS), and
Collaborative Air Traffic Management Technologies (CATM-T).

2014 Top Management Challenges, Department of Transportation                                                           7
CHAPTER 2

the linkages and dependencies among NextGen programs through 2015. FAA also states
that it will need to further refine and update the schedule to reflect developmental efforts
it plans to implement through 2020.

Mitigating Implementation Risks With Key Automation Systems That
Controllers Rely on To Manage Air Traffic FAA’s long-term goals for NextGen, such
as increasing airspace capacity and reducing flight delays, depend on fully implementing the
En Route Automation Modernization (ERAM) program—a $2.4 billion system to replace
hardware and software at FAA’s facilities that manage high-altitude traffic. After
experiencing significant delays and cost increases due to extensive software-related
problems, FAA began making progress deploying ERAM over the last 2 years. FAA is using
the new system either on a full- or part-time basis at 17 air traffic facilities. However, FAA is
now revising ERAM plans due to the impacts of sequestration, increased costs incurred to
fix problems, and the remaining work required to implement the system at the Nation’s
busiest facilities on the East Coast. FAA plans to complete ERAM in March 2015.

FAA’s Terminal Automation Modernization/Replacement (TAMR) program is also a
prerequisite for introducing new NextGen capabilities. This program involves about
$1 billion through 2018 to replace aging displays and processors with a single automation
platform that controllers rely on to manage takeoffs and landings, the most critical phases
of flight. FAA recently approved plans to begin transitioning to a new terminal automation
system at 11 large Terminal Radar Approach Control (TRACON) facilities through 2017 at a
cost of $438 million. However, FAA has not identified and finalized all hardware and
software requirements or “gaps” needed to successfully replace the existing system. While
FAA is developing software to address 94 gaps, it anticipates finding more as it deploys the
system. To achieve future NextGen capabilities, continued management attention from the
Department and FAA is essential to ensure timely implementation of these foundational
programs.

Further Developing and Implementing Consolidation and Modernization Plans
An important and controversial component of FAA’s NextGen efforts is the extent to which
the Agency consolidates or realigns the Nation’s extensive network of aging air traffic
control facilities. FAA’s consolidation plans will impact various NextGen programs that
already have established baselines, including automation and communication projects.
Moreover, these programs were originally based on FAA’s current facility set-up for en
route centers and TRACONs—not consolidated facilities. However, FAA has not made
changes to its Capital Investment Plan, and the full extent of any changes will remain
unknown until FAA makes decisions for the first integrated facility in the New York area.
These issues include cost, schedule, technical capabilities, and the impact on the aviation
workforce. To date, FAA has been unable to quantify the potential cost savings and benefits
from realigning air traffic facilities for airspace users and the traveling public. FAA expects to
provide a detailed cost estimate for the integrated New York facility by the end of 2014.




2014 Top Management Challenges, Department of Transportation                                    8
CHAPTER 2

Safely Integrating Unmanned Aircraft Systems in the NAS FAA predicts there will
be roughly 7,500 small commercial Unmanned Aircraft Systems (UAS) 14 in 5 years, with the
aerospace industry investing over $89 billion in UAS technology over the next 10 years.
Integrating UAS in domestic US airspace will impact several FAA lines of business and
offices, including safety and air traffic modernization. In 2012, FAA appointed a senior
executive to lead its UAS Program Office. In 2013, this became the UAS Integration Office,
with Aviation Safety and Air Traffic personnel combined into one office. However, it took
over a year to fully establish the office due to difficulties with creating a hybrid organization
for an emerging technology. FAA is still working on the necessary internal agreements to
establish roles and responsibilities between the UAS Integration Office and other FAA lines
of business. At the same time, FAA is behind in meeting requirements of the FAA
Modernization and Reform Act of 2012,15 which calls for FAA to safely integrate UAS into
the NAS by September 2015. For example, FAA has neither completed the requirements to
establish six test ranges, which were due in 2012, nor provided Congress with a
comprehensive UAS integration plan, which was due by February 2013. FAA states that
problems in meeting the act’s requirements are due to the complexity of the problem,
privacy issues, and unresolved coordination issues with other Federal agencies.

In addition, FAA must resolve a number of UAS-specific safety issues. While UAS capabilities
have improved, their ability to detect, sense, and avoid other air traffic is limited. Although
UAS are now operating in the NAS, FAA has not developed standard air traffic procedures
for safely co-managing them with manned aircraft. FAA must continue to work with other
Federal agencies and the aerospace industry to establish certification standards, obtain
reliable safety data, address privacy concerns, and align changes with its capital
investments.




14
   A UAS is comprised of a pilotless aircraft, satellite or radio link, and ground control station where an operator controls
the movements of the aircraft. UAS aircraft range in size from those with a wingspan as large as a Boeing 737 to smaller
than a radio-controlled model airplane. UAS can serve diverse purposes, such as conducting military operations, enhancing
border security, and monitoring forest fires.
15
   FAA Modernization and Reform Act of 2012, Pub. L. No. 112-95, February 14, 2012.

2014 Top Management Challenges, Department of Transportation                                                               9
CHAPTER 2

Related Products The following related documents can be found on the OIG Web site at
http://www.oig.dot.gov.

 • FAA Has Made Progress Fielding ERAM, but Critical Work on Complex Sites and Key
   Capabilities Remains, August 15, 2013

 • FAA’s Progress and Challenges in Advancing the Next Generation Air Transportation
   System, July 17, 2013

 • FAA’s Acquisition Strategy for Terminal Modernization Is at Risk for Cost Increases,
   Schedule Delays, and Performance Shortfalls, May 29, 2013

 • Weaknesses in Program and Contract Management Contribute to ERAM Delays and Put
   Other NextGen Initiatives at Risk, September 13, 2012

 • Update on FAA’s Progress and Challenges in Advancing the Next Generation Air
   Transportation System, September 12, 2012

 • Status of Transformational Programs and Risks To Achieving NextGen Goals,
   April 23, 2012

 • Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports
   Could Delay Benefits, August 1, 2012

 • The Success of FAA's Long-Term Plan for Air Traffic Facility Realignments and
   Consolidations Depends on Addressing Key Technical, Financial, and Workforce
   Challenges, July 17, 2012




For more information on the issues identified in this chapter, please contact
Jeffrey B. Guzzetti, Assistant Inspector General for Aviation Audits, at
(202) 366-0500.


2014 Top Management Challenges, Department of Transportation                        10
CHAPTER 3


Continuing Actions To Strengthen
Highway, Transit, and Pipeline Safety




Source: DOT

The Department plays a key role in improving and overseeing the Nation’s surface
transportation systems that are critical to efficiently move people and energy resources,
promote interstate commerce, and grow the U.S. economy. Sustained focus on the safety
requirements enacted in the Moving Ahead for Progress in the 21st Century Act (MAP-21)16
will be an essential part of the Department’s oversight across multiple modes of
transportation.

Key Challenges

     • Strengthening the national bridge inspection program

     • Developing a new tunnel safety program

     • Enhancing motor carrier safety oversight

     • Continuing efforts to build a rail transit safety program

     • Providing stronger oversight of pipeline safety programs

Strengthening the National Bridge Inspection Program The May 2013 partial
collapse of the Skagit River Bridge on Interstate 5 in Washington State brought renewed
attention to the safety and condition of the Nation’s bridges. One-fourth of the Nation’s
more than 600,000 bridges are deficient according to the Federal Highway Administration
(FHWA). 17 Our recommendations and new MAP-21 requirements both focus on developing
enhanced tools to help States improve safety, allocate scarce resources, measure

16
  Pub. L. No. 112-141 (2012).
17
 Deficient bridges include those that have experienced significant deterioration or have substandard geometric
characteristics, such as narrow lane widths or low clearances for the traffic on or under the bridge.

2014 Top Management Challenges, Department of Transportation                                               11
CHAPTER 3

performance, and effectively oversee Federal funds. Since 2006, we have recommended
that FHWA improve its oversight of State bridge programs by implementing a data-driven,
risk-based approach to assessing States’ compliance with National Bridge Inspection
Standards, prioritizing and remediating national bridge safety risks, improving bridge
inspection and inventory practices, and encouraging States’ effective use of bridge
management systems. In response, FHWA revised its approach to bridge oversight in 2011
to more objectively assess bridge safety risks. However, FHWA needs to implement our
remaining recommendations and meet MAP-21 provisions for strengthening bridge
inspection and inventory standards. At the request of the Ranking Member of the House
Committee on Transportation and Infrastructure, we are currently assessing FHWA’s
progress in responding to our prior recommendations and its implementation of MAP-21
bridge provisions.

Developing a New Tunnel Safety Program MAP-21 also requires FHWA to establish a
new national tunnel inspection program and a tunnel inventory. These requirements
include setting tunnel inspection standards by 2015 with qualifications, certification
procedures, and formal training for tunnel inspectors. Similar to FHWA’s national bridge
inspection program and inventory, MAP-21 requires States to inspect and periodically
report on the condition of the Nation’s tunnels. To fully implement the MAP-21 provisions
and promote consistent application of tunnel safety standards, FHWA will need to take a
number of steps, including issuing regulations that clearly specify what dimensions and
characteristics constitute a tunnel, 18 ensuring the baseline inventory of highway tunnels is
accurate, and establishing a process to assess inspection data. Prior to MAP-21, FHWA
issued a proposed rule on tunnel inspection standards in 2010 and developed guidance on
tunnel design and other topics. In response to MAP-21, FHWA issued a supplemental
proposed rule to add MAP-21 tunnel inspection standards. Any delays in developing training
and certification procedures could impact FHWA’s ability to oversee compliance with new
regulations.

Enhancing Motor Carrier Safety Oversight Between 2010 and 2012, large truck and
bus crashes decreased by 3.5 percent (from 129,587 to 125,063); associated fatalities were
also down by 4.9 percent 19 (from 4,307 to 4,096). While the Federal Motor Carrier Safety
Administration (FMCSA) has taken actions to remove high-risk carriers from the road, DOT
must take additional steps to implement MAP-21’s large truck and bus safety provisions,
which include several rulemakings, programmatic changes, and reports to be completed in
the next 2 years. FMCSA and the National Highway Traffic Safety Administration (NHTSA)
must complete a number of actions to meet these provisions:

     • Motor Coach Safety Rules: While NHTSA has the lead on MAP-21 provisions to
       strengthen motor coach safety regulations for improved occupant protection,
       passenger evacuation, and crash avoidance, FMCSA is still developing a rule the National
       Transportation Safety Board (NTSB) recommended to address oversight concerns on


18
     MAP-21 does not specify a definition for tunnel.
19
     According to preliminary data for 2012. Final data for 2012 will be reported later in 2014.

2014 Top Management Challenges, Department of Transportation                                       12
CHAPTER 3

       passenger carrier leases. FMCSA is also preparing to initiate a required rulemaking on
       safety inspections of passenger carrying vehicles.

     • Reincarnated Carriers: FMCSA issued a rule on revoking reincarnated carriers’20
       operating authority in response to an NTSB recommendation. Since the rule went into
       effect in May 2012, FMCSA has taken 43 actions, and is pursuing 3 more, against
       123 companies to consolidate the records of reincarnated or affiliated carriers. Of the
       46 actions, 38 involved motor carriers attempting to avoid existing out-of-service
       orders. FMCSA must also complete its pilot of a risk-based screening methodology to
       detect reincarnated carriers and take enforcement action against them to effectively
       implement the rule.

     • Motor Carrier Data: FMCSA published its long-delayed Unified Registration System
       (URS) Final Rule in August 2013, which should streamline the motor carrier registration
       process and, if properly implemented, enable the Agency to maintain more accurate
       industry information. FMCSA must implement the URS rule and enforcement
       mechanisms to ensure accurate information is available to evaluate carriers’ safety
       performance. Such mechanisms include automatic deactivation of DOT numbers for
       carriers who fail to update company information every 2 years. FMCSA must also
       ensure data quality in the measurement system it uses to evaluate motor carriers’
       safety performance under the Compliance, Safety, Accountability Program, 21 and
       complete nationwide deployment of interventions, such as on- and off-site reviews,
       which are planned for later this year.

Continuing Efforts To Build a Rail Transit Safety Program MAP-21 enhanced the
Federal Transit Administration’s (FTA) authority to oversee the safety of the Nation’s public
transportation systems. FTA must continue to work on initial policies and procedures for its
expanded safety oversight role and effectively distribute almost $22 million to State Safety
Oversight (SSO) agencies to ensure financial independence from transit agencies.22 FTA
needs to ensure that each State with an SSO has a State safety oversight plan that complies
with MAP-21 requirements.23 FTA must follow through on its plan to adopt a Safety
Management System framework to address the need for data-driven risk identification and
performance-based measures—concerns highlighted in our prior work. FTA also needs to
issue timely guidance, prioritize the greatest safety risks for any rulemakings, and enlist
leadership commitment to expedite these rulemakings.

As FTA begins plans for a Transit Asset Management system for rail transit infrastructure, it
may want to consider MAP-21 program changes in other DOT modes that are in the process

20
   Motor carriers that attempt to operate as a different entity in an effort to evade enforcement action, out-of-service
orders, or both.
21
   Compliance, Safety, Accountability is a 2010 FMCSA initiative to improve large truck and bus safety. It introduces a new
enforcement and compliance model that allows FMCSA and its State partners to contact a larger number of carriers earlier
to address safety problems before crashes occur.
22
   Many oversight agencies have limited staffing levels and budgets, and some depend on funding from the same rail
transit agencies they oversee.
23
   MAP-21 required FTA to make this determination by October 1, 2013.

2014 Top Management Challenges, Department of Transportation                                                           13
CHAPTER 3

of implementing similar systems. For example, under MAP-21, FHWA is developing its first
national tunnel inventory and safety inspection program, similar to its longstanding bridge
safety program. FTA could build on past collaborations with FHWA and discuss
opportunities to initiate an inventory and safety inspection program for rail transit bridges
and tunnels nationwide.

Providing Stronger Oversight of Pipeline Safety Programs Several recent pipeline
accidents highlight the need for the Pipeline and Hazardous Materials Administration
(PHMSA) and its State agents to implement an effective performance-based approach for
assessing pipeline safety. 24 NTSB has reported weaknesses in this aspect of PHMSA’s and
States’ oversight. After its investigation of the 2010 San Bruno, CA, pipeline explosion,25
NTSB recommended an audit of PHMSA’s certification program 26 to assess the effectiveness
of (1) State pipeline safety programs and Federal pipeline safety grants with regard to
oversight of intrastate pipeline operations and (2) State inspection and enforcement
activities.

We are currently finalizing the results of our review of PHMSA’s State Pipeline Safety
Program. 27 To date, we have determined that despite several efforts underway to enhance
program oversight, PHMSA faces critical challenges, including accurately assessing States’
compliance with performance safety factors and scoring their performance. In addition,
PHMSA’s guidelines for the State Pipeline Safety Program lack elements needed to identify
all safety weaknesses. For example, the guidelines do not establish minimum qualifications
for State inspectors who lead standard pipeline operator inspections. Consequently, PHMSA
cannot be sure that State inspections cover all Federal requirements and that pipeline
operators maintain safety standards. The guidelines also do not detail how States should
use risk factors for scheduling inspections or specify appropriate time intervals between
inspections, making it difficult for PHMSA to ensure States conduct inspections frequently
enough to detect and mitigate safety risks. Finally, PHMSA needs to strengthen its oversight
of suspension grant funds—funds awarded to States that are fiscally unable to maintain or
expand their pipeline safety programs. The Agency’s guidance to States on how to account
for these funds has proven insufficient, and PHMSA must follow through on its intent to
begin auditing the funds in calendar year 2014.




24
   Under the Natural Gas Pipeline Safety Act of 1968, PHMSA manages the State Pipeline Safety Program by requiring State
agencies to self-certify that they are qualified to oversee intra-State pipeline operators and enforce Federal pipeline safety
regulations.
25
    On September 9, 2010, a 54-year old gas pipeline exploded in San Bruno, CA, killing 8 and injuring 58 people, and
destroying 38 homes.
26
   In early 2012, the Secretary stated in a letter to NTSB that our office would conduct the audit.
27
   Through this program, PHMSA authorizes States to oversee and enforce operators’ compliance with Federal pipeline
safety regulations and allocates grants to State programs. Grant funding increased from $19.5 million in 2008 to
$46.3 million in 2012.

2014 Top Management Challenges, Department of Transportation                                                              14
CHAPTER 3

Related Products The following related documents can be found on the OIG Web site at
http://www.oig.dot.gov.

 • Timely and Targeted FMCSA Action Is Needed To Fully Address National Transportation
   Safety Board Recommendations for Improving Passenger Carrier Oversight,
   April 17, 2012

 • Challenges to Improving Oversight of Rail Transit Safety and Implementing an Enhanced
   Federal Role, January 31, 2012

 • Assessment of FHWA Oversight of the Highway Bridge Program and National Bridge
   Inspection Program, January 14, 2010

 • National Bridge Inspection Program: Assessment of FHWA’s Implementation of Data-
   Driven, Risk-Based Oversight, January 12, 2009

 • Audit of Oversight of Load Ratings and Postings on Structurally Deficient Bridges on the
   National Highway System, March 21, 2006




For more information on the issues identified in this chapter, please contact
Joseph W. Comé, Assistant Inspector General for Highway and Transit Audits,
at (202) 366-5630; Jeffrey B. Guzzetti, Assistant Inspector General for
Aviation Audits, at (202) 366-0500; or Mitch Behm, Assistant Inspector
General for Rail, Maritime, Hazmat Transport, and Economic Analysis, at
(202) 366-9970.


2014 Top Management Challenges, Department of Transportation                              15
CHAPTER 4


Improving Oversight of Surface
Infrastructure Investments and
Implementing Statutory Requirements




Source: DOT

In late 2012, Hurricane Sandy substantially damaged transit infrastructure in the mid-
Atlantic and northeastern United States. To assist State and local agencies in their recovery
and resiliency efforts, DOT received approximately $13 billion in relief funds. 28 DOT is
responsible for effective stewardship of these funds as well as billions in Federal funds
provided annually to States and localities to construct and maintain the Nation’s roadways,
bridges, transit systems, and ports. At the same time, DOT’s Federal Transit Administration
(FTA) and Federal Highway Administration (FHWA) must meet new requirements of the
Moving Ahead for Progress in the 21st Century Act (MAP-21). These requirements include
accelerating project delivery, employing performance management, and making oversight
activities more risk based. The Maritime Administration (MARAD) must also continue to
correct management vulnerabilities with its port projects as it works to develop a
framework for ongoing and future port infrastructure projects.

Key Challenges

     • Ensuring effective oversight of Hurricane Sandy relief funds and considering lessons
       learned from Federal emergency responses

     • Maintaining efforts to strengthen highway and transit oversight

     • Implementing initiatives to expedite project delivery and reduce costs

     • Transitioning to a system of performance-based surface transportation investments

     • Developing an effective port infrastructure program
28
  In response to the storm, Congress passed, and the President signed into law, the Disaster Relief Appropriations Act,
Pub. L. No. 113-2, in January 2013.

2014 Top Management Challenges, Department of Transportation                                                              16
CHAPTER 4

Ensuring Effective Oversight of Hurricane Sandy Relief Funds and
Considering Lessons Learned From Federal Emergency Responses FTA is
responsible for ensuring appropriate stewardship over the largest allocation—more than
$10 billion—of DOT’s Hurricane Sandy relief funds. FTA is also required by MAP-21 to
establish an Emergency Relief Program to effectively respond to future emergencies. FTA
quickly responded to Hurricane Sandy by making more than $5 billion of relief funds
available to recipients within 4 months of the Disaster Relief Appropriations Act. Our initial
review of FTA’s oversight of Hurricane Sandy relief funds identified opportunities for FTA to
more effectively allocate, obligate, and oversee them. A key challenge for FTA will be
ensuring that oversight plans target key project and grantee risks, such as improper
payments. FTA must also develop a process for allocating and awarding the remaining
resiliency funds on a competitive basis and define clear and transparent criteria for
evaluating proposed resiliency projects.

Drawing on lessons learned from Federal emergency responses and best practices for
recipients’ acquisitions based on Department and other Federal resources could inform
FTA’s efforts to finalize a rule for the Emergency Relief Program. These lessons include
mitigating the risk of overpayment for some services in emergencies, establishing
timeframes to limit requests for emergency relief funds after events occur, setting a
minimum amount for providing emergency relief funds, and reviewing a sample of
emergency grantee acquisitions. We expect to issue our report later this year.

Maintaining Efforts To Strengthen Highway and Transit Oversight FHWA and
FTA took several actions to align their programs with MAP-21 requirements, strengthen
oversight of highway and transit investments, and move towards more risk-based
approaches to oversight. Maintaining momentum on improving these oversight tools will be
critical to ensure proper stewardship of about $40 billion annually in Federal-aid highway
funds. For example, FHWA should more clearly and consistently define Federal and State
oversight roles and responsibilities within its congressionally required Stewardship and
Oversight Agreements with States. In response to our recommendations and MAP-21,
FHWA significantly revised its oversight approach. However, actions are needed to link
national and local project priorities to a National Program Stewardship and Oversight Plan,
implement a new risk assessment process, develop a more data-driven and consistent
approach to project level oversight, and use internal Program Management Improvement
teams. These actions would help ensure effective and consistent implementation of Federal
requirements across FHWA’s 52 division offices.

Similarly, FTA must complete a comprehensive review of its oversight program, which relies
heavily on private contractors, and implement any changes that emerge from that review.
For example, in response to vulnerabilities we identified on the Dulles Corridor Metrorail
Project, FTA committed to assess the effectiveness of its project management oversight
contractors—who help oversee major transit projects in accordance with FTA guidance.
Further, FTA agreed to address vulnerabilities we found in its oversight of billions in grants
provided to State and local transit agencies. For example, FTA must follow through on
ensuring its regions and contractors accurately enter data into its oversight tracking system

2014 Top Management Challenges, Department of Transportation                               17
CHAPTER 4

to address repeat findings and trends and to implement performance measures that assess
the effectiveness of the oversight program’s outcomes.

Implementing Initiatives To Expedite Project Delivery and Reduce Costs
MAP-21’s Subtitle C is designed to increase efficiency and innovation, with a focus on
environmental issues during the planning and design phase of highway and transit projects.
According to DOT, fully implementing Subtitle C requires completion of 42 actions. To
enable States to fully achieve Subtitle C’s anticipated project delivery benefits in a timely
manner, DOT must complete rulemakings—including a rule to expand use of categorical
exclusions. 29 DOT should also assign estimated completion dates, where feasible, for
planned actions that do not have milestones specified by statute and track their progress.
Sustained management attention will be critical to ensure the timely completion of
rulemakings, guidance, other program initiatives, and reports to Congress.

Transitioning to a System of Performance-Based Surface Transportation
Investments        MAP-21 requires DOT to move toward more performance-based
investment management of its highway and transit programs. MAP-21 also requires States
to establish a transportation performance plan that is linked to Federal-aid highway funds.
Accordingly, DOT must establish new rules, performance standards, and modify related
oversight mechanisms. For example, DOT must implement new performance measures that
incorporate the Department’s seven national goals: safety, infrastructure condition,
congestion reduction, system reliability, freight movement and economic vitality,
environmental sustainability, and reduced project delivery delays. Further, to meet MAP-21
requirements, DOT must use its newly defined performance measures and associated data
improvements to better assess and report on the impact of core programs, such as FHWA’s
Highway Safety Improvement Program (HSIP)—DOT’s primary program for reducing
fatalities and serious injuries on roadways through infrastructure improvements. FHWA
could use existing financial and performance data on HSIP projects, combined with the
consistent and complete data on fatalities and serious injuries throughout the United States
called for by MAP-21, to develop a more complete picture of HSIP’s impact on traffic safety.

Developing an Effective Port Infrastructure Program Since 2003, MARAD has
been authorized to administer funds to develop and modernize port infrastructure. In
2009, the National Defense Authorization Act 30 mandated that MARAD establish a Port
Infrastructure Development Program to improve port facilities and provide a framework
for ongoing and future port infrastructure projects. In recent years, port projects under
MARAD’s management have experienced setbacks, including construction problems and
schedule delays, raising concerns about MARAD’s ability to manage its port projects.

While MARAD has taken steps to improve management of its port infrastructure projects,
we reported in August 2013 that MARAD could do more to provide effective oversight of
its projects and develop a Port Infrastructure Development Program. These steps include

29
   A categorical exclusion is a category of actions that do not individually or cumulatively have a significant effect on the
human environment. In these cases, an environmental impact statement or an environmental assessment is not required.
30
   Pub. L. No. 111-84 § 3512 (Oct. 28, 2009).

2014 Top Management Challenges, Department of Transportation                                                             18
CHAPTER 4

adequately defining its port project oversight responsibilities and providing guidance to
contractors for developing program management plans; establishing a sound risk
management process consistent with industry best practices; and establishing a process to
systematically store, maintain, and track project progress and funds. MARAD is developing
a Port Infrastructure Development Program but has yet to provide a completion date.

Related Products The following related documents can be found on the OIG Web site at
http://www.oig.dot.gov.

 • MARAD Has Taken Steps To Develop a Port Infrastructure Development Program but Is
   Challenged in Managing Its Current Port Projects, August 2, 2013

 • Letter to Congress on the Status of MAP-21, Subtitle C: Acceleration of Project Delivery,
   May 22, 2013

 • Lessons Learned from ARRA Could Improve the Federal Highway Administration’s Use of
   Full Oversight, May 7, 2013

 • FHWA Provides Sufficient Guidance and Assistance To Implement the Highway Safety
   Improvement Program but Could Do More To Assess Program Results, March 26, 2013

 • FHWA Has Opportunities To Improve Oversight of ARRA High Dollar Projects and the
   Federal-Aid Highway Program, November 12, 2012

 • Improvements to Stewardship and Oversight Agreements Are Needed To Enhance
   Federal-aid Highway Program Management, October 1, 2012

 • Improvements Needed in FTA’s Grant Oversight Program, August 2, 2012

  • Actions Needed To Improve FTA’s Oversight of the Dulles Corridor Metrorail Project’s
    Phase 1, July 26, 2012




For more information on the issues identified in this chapter, please contact
Joseph W. Comé, Assistant Inspector General for Highway and Transit Audits,
at (202) 366-5630 or Mitch Behm, Assistant Inspector General for Rail,
Maritime, Hazmat Transport, and Economic Analysis, at (202) 366-9970.


2014 Top Management Challenges, Department of Transportation                               19
CHAPTER 5


Implementing Requirements To Address
the Federal Railroad Administration’s
Expanded and Traditional
Responsibilities




Sources: National Archives and Records Administration and Amtrak

The Rail Safety Improvement 31 (RSIA) and the Passenger Rail Investment and
Improvement 32 (PRIIA) Acts of 2008 directed the Federal Railroad Administration (FRA) to
broaden its safety related responsibilities, establish a National Rail Plan, and develop a grant
program to fund rail investment. Five years later, the Agency has only disbursed 16 percent
of $10.1 billion in grant funds for the High Speed Intercity Passenger Rail Program. 33 FRA’s
progress toward defining rail safety priorities and completing requirements for new
responsibilities has also been limited. Going forward, FRA will need to expedite required
rulemakings to mitigate rail safety hazards and address national transportation needs,
provide its oversight staff with the training needed to carry out new responsibilities, and
ensure that policies and procedures governing its traditional responsibilities reflect the
current regulatory environment.

Key Challenges

     • Completing implementation of key RSIA and PRIIA provisions

     • Updating policies and procedures for traditional responsibilities

Completing Implementation of Key RSIA and PRIIA Provisions RSIA directed FRA
to develop 17 new or revised safety regulations governing a wide variety of areas, including
positive train control (PTC), track maintenance, minimum training standards for railroad



31
   Pub. L. No. 110-432 Div. A.
32
   Pub. L. No. 110-432 Div. B.
33
   $8 billion of which was appropriated by the American Recovery and Reinvestment Act of 2009 (ARRA). FRA has obligated
99 percent of the $10.1 billion in grant funding.

2014 Top Management Challenges, Department of Transportation                                                        20
CHAPTER 5

employees, and highway rail grade crossings. 34 In April 2013, we reported that FRA had
issued or made progress on the RSIA-required rules, but its primary focus on developing a
PTC rule created delays with other rules. Ultimately, FRA missed statutory deadlines for
seven of the eight rules it issued and has now missed the deadlines for seven of the
remaining nine. The lack of timely rules delays mitigation of railroad industry hazards that
Congress intended the rules to address. For example, FRA has yet to issue a rule on
minimum training standards for safety-related railroad employees and a rule on grade
crossing inventories. Respectively, these rules are intended to reduce accidents caused by
human factors and to mitigate risk of injury and death due to highway-rail grade crossing
accidents.

In addition, FRA has not provided updated guidance or training for overseeing compliance
with certain new RSIA rules. For example, although FRA’s rule on PTC has been in effect
since March 2010, the Agency did not update its compliance manual to include information
on the new rule until April 2012. FRA uses these compliance manuals to set expectations for
inspection tasks and establish investigation requirements. Training has been similarly
lacking. For example, PTC oversight staff informed us that they still needed additional
training to be confident in their abilities to oversee PTC tests. FRA implemented a new
policy in September 2013 requiring staff to develop technical bulletins or other guidance
documents outlining new regulations and to develop and host training sessions to explain
new regulations; however, it remains to be seen whether this new policy will be effective.

Of the 29 responsibilities PRIIA assigned to FRA, 17 have been completed, 10 are in
progress, and 2 have not been started. One critical responsibility—development of a
National Rail Plan 35—is underway. However, rather than producing a single national rail
plan, FRA has focused on developing tools and guidance for States and regions to create
regional rail plans, as well as criteria and parameters for justifying Federal investments. To
date, FRA has primarily focused on regional plans for the Southwest and the Northeast
Corridor. Consequently, 5 years after the passage of PRIIA, FRA has still not articulated rail
plans and milestones for the rest of the country.

Updating Policies and Procedures for Traditional Responsibilities FRA must
ensure that policies and procedures governing its traditional responsibilities reflect the
current regulatory environment, such as the National Environmental Policy Act (NEPA), 36
which requires agencies to consider the potential environmental impact of proposed
actions including federally funded projects. However, because most of FRA’s procedures for
the NEPA process have not been updated since 1999, many references in the procedures
are outdated, and requirements from subsequent statutes and recommended guidance are

34
   PTC is a communication-based system designed to prevent accidents caused by human factors, including train collisions,
derailments due to speed, incursions into work zones, and movement of trains through switches left in wrong positions.
Human factor accidents are accidents due to causes such as employee physical condition, improper communications, and
improper train handling.
35
   PRIIA directs the Federal Railroad Administrator to develop a long-range national rail plan that is consistent with
approved State rail plans and the rail needs of the Nation, as determined by the Secretary in order to promote an
integrated, cohesive, efficient, and optimized national rail system for the movement of goods and people.
36
   42 U.S.C. § 4321-4347, Jan. 1, 1970.

2014 Top Management Challenges, Department of Transportation                                                         21
CHAPTER 5

not included. As a result, FRA staff lack guidance to efficiently administer the NEPA process
and ensure grantees comply with legal and regulatory requirements.

Finally, improvements are needed in FRA’s Railroad Rehabilitation and Improvement
Financing (RRIF) program—a $35 billion credit program established in 1998 to provide loans
to railroads and other eligible entities to finance rail infrastructure projects. Since its
inception, the RRIF program has issued 33 loans totaling approximately $1.7 billion.
However, because RRIF has disbursed less than 5 percent of its authorized spending limit
and has only issued seven loans since the beginning of 2010, Congress has expressed
concerns over the extent to which the program has been used and suggested that lengthy
reviews of applications may be contributing to the program’s low participation rate. Our
analysis found that accepting incomplete applications has affected the timeliness of FRA’s
RRIF application reviews, which have taken as long as 28 months. Management attention is
needed to identify ways to expedite this process as a step toward maximizing this program’s
full potential.

Related Product The following related document can be found on the OIG Web site at
http://www.oig.dot.gov.

 • FRA Is Nearing Completion of Rules Required by the Rail Safety Improvement Act, but
   Needs To Improve Oversight, April 17, 2013




For more information on the issues identified in this chapter, please contact
Mitch Behm, Assistant Inspector General for Rail, Maritime, Hazmat
Transport, and Economic Analysis, at (202) 366-9970.


2014 Top Management Challenges, Department of Transportation                              22
CHAPTER 6


Managing Acquisitions and Contracts To
Achieve Results and Save Taxpayer
Dollars




Source: DOT

In fiscal year 2012, DOT obligated approximately $62 billion on contracts and grants.37
Investing and administering these funds wisely and fulfilling the President’s Executive
Order 38 and Office of Management and Budget (OMB) initiatives 39 to deliver an efficient,
effective, and accountable Government continues to be a challenge for DOT management.
Our audits have identified opportunities for DOT to better manage its contracts and
resources and save taxpayer dollars.

Key Challenges

     • Increasing management focus on reducing high-risk contract types

     • Ensuring taxpayer dollars are invested and administered wisely on major contracts

     • Improving management oversight of recipients’ contract practices to ensure program
       integrity and efficient use of limited funds

Increasing Management Focus on Reducing High-Risk Contract Types A
Government-wide initiative calls for Federal agencies to reduce spending on high-risk
contract types—such as cost-reimbursement—and management support services


37
   DOT's fiscal year 2013 data were not available at the time of this report.
38
   Executive Order 13576, “Delivering An Efficient, Effective, and Accountable Government,” Jun. 13, 2011.
39
   OMB Memoranda: Reduced Contract Spending for Management Support Services, Nov. 7, 2011, and Improving
Government Acquisition, Jul. 29, 2009.

2014 Top Management Challenges, Department of Transportation                                           23
CHAPTER 6

contracts, 40 which are often awarded using high-risk contract types. However, between
fiscal years 2009 and 2012, DOT increased its obligations for cost-reimbursement contracts
from $1.5 billion to $1.9 billion. While these contracts may be justified in some cases, they
pose a high risk for waste of taxpayer funds because they do not provide a direct incentive
for contractors to control costs. Similarly, our ongoing work shows that DOT’s obligations on
management support services contracts have increased by 17 percent (approximately
$1.1 billion to almost $1.3 billion) from fiscal years 2010 through 2012. Given DOT’s
significant investment in high-risk contracts each year, even minimal steps toward reducing
the use of these contracts could yield substantial savings for the Government and
taxpayers.

In addition, revised Federal Acquisition Regulations (FAR) impose increased oversight
requirements on Federal agencies that choose cost-reimbursable contracts over less risky
contract types. DOT did not meet at least 25 percent of these FAR revisions on 15 of the
31 cost-reimbursable contract awards we examined. For example, the Operating
Administrations we reviewed 41 did not fully comply with acquisition planning and
justification requirements or consistently assess oversight risks, properly designate
oversight personnel, or verify that contractors’ accounting systems were adequate to
provide valid and reliable cost data. As a result, the Department is missing opportunities to
reduce the Government’s risk associated with use of these contract types.

Ensuring Taxpayer Dollars Are Invested and Administered Wisely on Major
Contracts Each year, DOT awards billions of dollars for major information technology (IT)
and infrastructure improvement contracts. To maximize its investment, the Department
needs to administer these funds wisely while meeting program goals. Several concerns
require sustained management attention:

     • DOT’s Oversight of Major IT Investments: DOT has made significant progress toward
       implementing our March 2013 recommendations to strengthen its decision processes
       and oversight for its major IT investments, which in fiscal year 2012 were just over
       $2.2 billion. For example, in fiscal year 2013, DOT updated its Investment Review
       Board’s charter to clarify organizational responsibilities and establish the Senior
       Procurement Executive as a voting member. However, DOT still needs to develop a
       comprehensive plan to ensure it is equipped to properly oversee all Operating
       Administrations’ IT investments; assign organizational responsibility, accountability, and
       authority; and develop written implementation policies.

     • MARAD Port Projects: In August 2013, we reported that inadequate acquisition
       planning, lack of reliable cost estimates, and noncompliance with Federal contracting
       requirements on the Port of Anchorage project put the Maritime Administration’s
       (MARAD) ongoing and future port projects at risk. Notably, we found that MARAD acted

40
  Management support services contracts include those for professional and technical support services such as
engineering, information technology, acquisition planning, and program management.
41
   Our review included 6 of the 11 Operating Administrations that awarded cost-reimbursement contracts within the
timeframe selected for our audit of July 1, 2011, through May 31, 2012. We did not include the Federal Aviation
Administration in our audit because the Agency is not required to comply with the FAR.

2014 Top Management Challenges, Department of Transportation                                                  24
CHAPTER 6

    contrary to the intent of the Small Business Administration’s 8(a) program by steering
    the first Port of Anchorage contract to the Port’s preferred firm. According to MARAD’s
    documentation, this project’s cost estimate grew from $211 million in 2003 to $1 billion
    as of January 2011, with scheduled completion slipping by 8 years. Further, MARAD
    representatives informed us that the Municipality is considering scaling down the
    project, but they did not have a revised cost estimate at the time we concluded our
    review. According to MARAD officials, prior to 2011 the Agency’s leadership made a
    policy decision that abdicated programmatic and technical control to local port officials,
    which contributed to problems with the project. We also found weaknesses in
    MARAD’s contract management of its Port of Guam and Hawaii Harbors projects,
    including a lack of established contract administration plans, required contractor
    performance evaluations, and independent Government estimates.

 • Air Traffic Control Optimum Training Solution (ATCOTS): In 2010, we made several
   recommendations to improve the Federal Aviation Administration’s (FAA) management
   of its ATCOTS contract, which was awarded in 2008 to provide controller training
   support, reduce total training time and costs, and develop training innovations. Despite
   FAA’s efforts to address recommendations from our 2010 report, we continue to
   identify weaknesses in program and contract management. Notably, FAA did not
   identify training needs, as we recommended, before exercising an option to continue
   the contract even though it experienced $89 million in cost overruns for the first
   4 years. While FAA reduced the number of contractor instructors by 44 percent to
   prevent future cost overruns, this required FAA to perform more internal training—a
   cost FAA has not quantified. In addition, FAA was unable to achieve key contract goals
   to reduce controller training times or produce sufficient training innovations, as the
   average time to certify controllers increased by 41 percent from fiscal year 2009
   through fiscal year 2012. Finally, FAA did not effectively use cost incentives to control
   contract spending for the first 4 years, and award fees were not linked to the
   achievement of contract goals. We plan to issue our report by January 2014.

Improving Management Oversight of Recipients’ Contract Practices To Ensure
Program Integrity and Efficient Use of Limited Funds DOT’s Disadvantaged
Business Enterprise (DBE) program—a high-dollar recipient program—requires close
management attention to mitigate the risk of fraud, waste, and abuse. DOT will need to
closely monitor grant recipients’ contract award practices to ensure ineligible firms do not
receive awards.

 • Overseeing DBE Contract Practices: In April 2013, we reported deficiencies in the
   Department’s management of its multibillion-dollar DBE program. Specifically, DOT did
   not provide comprehensive and standardized DBE guidance or sufficient training to
   recipients—the State and local transportation agencies who implement the program—
   or assign a DOT organization to integrate and manage the program. In addition, DOT
   does not regularly assess the effectiveness of the Operating Administrations’ oversight
   of DBE recipients, which was inadequate to ensure compliance with program
   requirements, such as applicant eligibility. For example, State certification staffs were

2014 Top Management Challenges, Department of Transportation                                25
CHAPTER 6

    unsure of how to calculate an applicant’s personal net worth—a key factor in
    determining DBE eligibility. Such weaknesses increase the risk that ineligible firms will
    be certified as DBEs. Fraud also remains prevalent in the DBE program, with 40 percent
    of our active procurement and grant fraud investigations involving DBE fraud as of
    October 31, 2013. From October 2012 through October 2013, our DBE investigations
    resulted in 16 indictments, 20 convictions, and financial recoveries over $10.3 million.
    Finally, the Department has not fully met its regulatory program objective to help DBE
    firms succeed in the marketplace, as most certified DBEs never receive work on Federal
    projects. However, because DOT does not assess its achievement of this or other
    regulatory objectives, it cannot assess program effectiveness or identify needed
    changes.

 • Preventing Suspended and Debarred Firms From DBE Participation: DOT must
   strengthen controls over its DBE program to prevent suspended and debarred firms
   from participating in the program. Federal regulations exclude these firms from
   receiving federally funded contracts. However, our review of 26 State DBE directories
   identified 3 suspended or debarred firms listed as eligible to receive federally funded
   DBE awards, raising concerns that the total number of suspended or debarred firms
   currently listed in State DBE directories may be higher than our review indicated.
   Accordingly, we issued a management advisory to DOT in September 2013 noting that
   its DBE program may lack the guidance and safeguards to prevent award of DBE work
   to suspended or debarred firms.




2014 Top Management Challenges, Department of Transportation                               26
CHAPTER 6

Related Products The following related documents can be found on the OIG Web site at
http://www.oig.dot.gov.

 • Management Advisory—Suspended or Debarred Firms Are Listed on State DBE
   Directories as Eligible for DBE Participation, September 24, 2013

 • DOT Does Not Fully Comply With Revised Federal Acquisition Regulations on the Use
   and Management of Cost-Reimbursement Awards, August 5, 2013

 • MARAD Has Taken Steps To Develop a Port Infrastructure Development Program but Is
   Challenged in Managing Its Current Port Projects, August 2, 2013

 • Weaknesses in the Department’s Disadvantaged Business Enterprise Program Limit
   Achievement of Its Objectives, April 23, 2013

 • Improvements to DOT’s Governance Processes Are Needed To Enhance Oversight of
   Major IT Investments, March 27, 2013




For more information on the issues identified in this chapter, please contact
Mary Kay Langan-Feirson, Assistant Inspector General for Acquisition and
Procurement Audits, at (202) 366-5225 or Timothy Barry, Principal Assistant
Inspector General for Investigations, at (202) 366-1967.


2014 Top Management Challenges, Department of Transportation                      27
CHAPTER 7


Building a Secure and Modern
Information Technology Infrastructure




Source: NetConnect Blog

Securing DOT’s information technology (IT) infrastructure remains a top priority since
breaches by computer hackers have placed a number of major entities at risk and exposed
individuals’ personal information to unauthorized access. For the last 3 fiscal years, the
Department has declared the deficiencies in its information security program to be a
material weakness. In addition, to build a secure and modern IT infrastructure, DOT needs
an enterprise architecture (EA)—a blueprint for aligning DOT’s strategic vision with its IT
infrastructure. An effective EA looks beyond immediate IT needs, uses a standardized
technology platform, and ensures new IT projects fit into the overall strategy.

Key Challenges

  • Securing information technology infrastructure

  • Protecting sensitive information

  • Building an effective Departmentwide EA program




2014 Top Management Challenges, Department of Transportation                            28
CHAPTER 7

Securing Information Technology Infrastructure Last year, we reported that the
Department improved its information security program by enhancing its cyber security
policy and guidance and establishing a repository for software security baselines. However,
DOT’s information systems still remained vulnerable to significant security threats and risks
because the program did not meet key Office of Management and Budget (OMB) and
Federal Information Security Management Act (FISMA) requirements to protect agency
information and systems. As a result, in 2012, DOT again declared its information security
deficiencies a material weakness in its annual assurance statement, which is required by the
Federal Managers’ Financial Integrity Act.42

We determined that the Department’s Office of the Chief Information Officer (OCIO), the
modal Administrators, and their CIOs could do more to build and sustain strong information
security practices. For example, all Operating Administrations’ CIOs are still in the process of
completing information security procedures for several key areas, including capital planning
for IT security and developing continuous monitoring guidance and implementing practices.
While DOT has taken actions, such as establishing a repository of secure software settings
and acquiring sophisticated security monitoring software, it has been slow to address both
our FISMA 2012 recommendations and self-identified weaknesses. Specifically, in 2012 we
reported that over 2,000 actions to remediate security weaknesses were behind schedule.
We also identified weaknesses in critical Office of the Secretary (OST) and Federal Aviation
Administration (FAA) systems. For example, OST’s Common Operating Environment (COE),
which provides key services, such as email and Internet access to non-FAA Operating
Administrations, is vulnerable to hackers. In addition, our ongoing work on air traffic control
systems continues to identify weaknesses in access controls and incident reporting that FAA
needs to remediate. We plan to issue our 2013 FISMA report later this year. Cooperation
between the Department and the Operating Administrations to continue addressing these
deficiencies will be key to building a strong information security program—one that can
quickly adapt to and avert new cyber threats.

Protecting Sensitive Information In fiscal year 2013, the Department demonstrated its
commitment toward providing privacy protections through progress on its plan to identify,
reduce, and protect personally identifiable information (PII) collected and stored by its
systems. OMB emphasized the importance of protecting PII and provided agencies with
simple and cost-effective steps to reduce the volume of data collected, limit access to it,
and use encryption and strong authentication procedures. 43 The Department plans to
complete these actions by the end of fiscal year 2014; in the meantime, we continue to
identify weaknesses that could expose sensitive data. For example, in June 2013 we
reported that PII data in FAA’s Civil Aviation Registry were not encrypted or adequately
protected from compromise through strong authentication techniques. We also found that
numerous configuration deficiencies in the system’s software rendered the Registry
vulnerable to attacks and unauthorized access. FAA states that it will implement upgrades
to correct the software vulnerabilities and establish data encryption by the end of 2013. Our

42
 Federal Managers' Financial Integrity Act, Pub. L. No. 97–255 (1982).
43
 OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information,
May 22, 2007.

2014 Top Management Challenges, Department of Transportation                                                   29
CHAPTER 7

September 2013 report on the Department’s COE similarly identified sensitive data that
were not adequately protected from hackers or malicious insiders. OST plans to complete
actions to secure the COE by the end of fiscal year 2014.

Building an Effective Departmentwide EA Program An agency’s EA program helps
management understand its current technology infrastructure, define future infrastructure
needs to facilitate the accomplishment of its mission, and develop a transition plan. Despite
years of effort towards creating an EA, DOT still lacks comprehensive EA policy and
procedures, direction in the selection of EA development tools, performance measures, and
an approved plan to build a Departmentwide EA. Absent this blueprint, the Department
faces significant challenges in maximizing its return on IT investments through cost savings,
reduced duplicative systems, aligned information technology and mission, and effective
information security spending—all critical elements in an environment of limited resources
and increased security risks.

Related Products The following related documents can be found on the OIG Web site
at http://www.oig.dot.gov.

 • Security Weaknesses in DOT’s Common Operating Environment Expose Its Systems and
   Data to Compromise, September 10, 2013

 • FAA’s Civil Aviation Registry Lacks Information Needed for Aviation Safety and Security
   Measures, June 27, 2013

 • FISMA 2012: Ongoing Weaknesses Impede DOT’s Progress Toward Effective Information
   Security, November 14, 2012

 • DOT Does Not Have an Effective Enterprise Architecture Program for Management of
   Information Technology Changes, April 17, 2012




For more information on the issues identified in this chapter, please contact
Louis C. King, Assistant Inspector General for Financial and Information
Technology Audits, at (202) 366-1407.


2014 Top Management Challenges, Department of Transportation                              30
EXHIBIT


Comparison of Fiscal Years 2014 and 2013
Top Management Challenges
Fiscal Year 2014 Challenges                        Fiscal Year 2013 Challenges

• Improving FAA’s Oversight of the Aviation   • Enhancing FAA’s Oversight and Use of Data To
  Industry and the Operations of the National   Identify and Mitigate Safety Risks
  Airspace System
• Identifying and Addressing Root Causes of        • Ensuring the Next Generation Air
  Problems With NextGen and Setting                  Transportation System Advances Safety and
  Investment Priorities                              Air Travel
• Continuing Actions To Strengthen Highway,        • Strengthening Existing Surface Safety
  Transit, and Pipeline Safety                       Programs and Effectively Implementing New
                                                     Safety Requirements
• Improving Oversight of Surface                   • Maximizing Surface Infrastructure Investments
  Infrastructure Investments and                     With Effective Program Oversight and
  Implementing Statutory Requirements                Execution of New Legislative Requirements
• Implementing Requirements To Address the • Adequately Overseeing Administration of High
  Federal Railroad Administration’s Expanded Speed Intercity Passenger Rail Grant Funds
  and Traditional Responsibilities

• Managing Acquisitions and Contracts To           • Ensuring Effective Management of DOT’s
  Achieve Results and Save Taxpayer Dollars          Acquisitions To Maximize Value and Program
                                                     Performance
• Building a Secure and Modern Information         • Managing and Securing Information Systems
  Technology Infrastructure                          To Efficiently Modernize Technology
                                                     Infrastructure and Protect Sensitive Data from
                                                     Compromise
                                                   • Overseeing Administration of Key
                                                     Transportation Assets To Ensure Their Success
                                                     and Sustainability

                                                   • Strengthening Financial Management Over
                                                     Grants To Better Use Funds, Create Jobs, and
                                                     Improve Infrastructure




2014 Top Management Challenges, Department of Transportation                                   31
APPENDIX. DEPARTMENT RESPONSE



                                                        Memorandum
U.S. Department of
Transportation
Office of the Secretary
of Transportation


  Subject:    ACTION: Management Comments on Office of                   Date: November 22, 2013
              Inspector General Report on Top Management
              Challenges 2014

  From:       Sylvia I. Garcia                                           Reply to
              Assistant Secretary for Budget and Programs                Attn of:

               and Chief Financial Officer

  To:         Calvin L. Scovel III
              Inspector General

The Department carefully considers and constructively acts upon each of the products and issues
identified by the Office of Inspector General (OIG). The Department’s actions focus on both
macro and micro levels, including both large scale issues and individual programmatic elements.
At the macro level, crosscutting the OIG top management challenges report identifies important
issues that assist the Department’s management in fulfilling our mission to:

    •     Ensure the safety of the Nation’s transportation systems in the air, land and on the water,
    •     maintain and grow the Nation’s transportation infrastructure to provide sound highways,
          bridges and rail systems that efficiently move people and goods both across the country
          and across town,
    •     refine financial systems and controls and oversee compliance both internally and
          externally to ensure that the Department is a sound and effective steward of taxpayer
          funds, and
    •     ensure that the Department has secure and effective internal systems and processes, and
          provide the strategic vision, programs, guidance and oversight necessary to effectively
          and expeditiously accomplish our missions.

On a micro level, the Department provides clear and detailed responses to each and every OIG
report that served as the foundation for its top management challenges report. The Department
has developed strong processes for managing the interactions with the OIG, that include
developing detailed responses to every OIG report and working with the OIG to ensure
resolution, to the greatest extent possible on every report and every on individual
recommendation. The Department further maintains a Recommendation Action Tracking
System that provides frequent detailed metrics to management throughout the Department to


2014 Top Management Challenges, Department of Transportation                                       32
APPENDIX. DEPARTMENT RESPONSE

track and encourage completion of action on these recommendations until agreement is reached
with the OIG that we have indeed accomplished the recommended action.
As a result, of employing both the top down macro approach, and the bottoms up micro
approach, the Department has continuously achieved significant progress addressing both the
overall issues enumerated in the OIG management challenges report and the individual
component reports and recommendations that form its basis.
The Department is pleased with the constructive relationship that continues to develop with its
OIG. The OIG provides useful information from its unique and independent perspective on our
programs and operations. As the government continues to adapt to constraints on resources, we
will continue to rely on OIG that provides useful insights to aid management in further
improving programmatic performance while identifying additional efficiencies and potential cost
savings.




2014 Top Management Challenges, Department of Transportation                                  33
